No.

IN THE SUPREME COURT
OF THE LTNITED STATES

MARTIN G. LEWIS,
Petitioner,

v
DEWAYNE HENDRIX,
Respondent.

MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS
The petitioner, Martin G. Lewis, requests leave to file the attached petition for writ

of certiorari to the United States Court of Appeals for the Ninth Circuit without prepayment
of costs and to proceed informa pauperis pursuant to Rule 39.1 ofthis Court and l8 U.S.C.
$ 3006A(dX7). The petitioner was represented

by counsel appointed under the Criminal

Justice Act in the District of Oregon and on appeal in the Ninth Circuit Court of Appeals,
and therefore no affidavit is required.

of

Respectfully submitted this 22nd

S

April,202l.

Sady

Attomey for Petiti

